                                         AUDIT




 GOVTRIP USE AND MONITORING BY THE
 U.S. DEPARTMENT OF THE INTERIOR—
 BUREAU OF OCEAN ENERGY
 MANAGEMENT




Report No.: WR-IN-BOEM-0007-2013   September 2013
                   OFFICE OF
                  INSPECTOR GENERAL
                   U.S. DEPARTMENT OF THE INTERIOR


                                                                                                   SEP 0 9 2013
Memorandum

To:                 Tommy Beaudreau
                    Director, Bureau of Ocean Energy Management

                    Brian M. Salerno
                    Director, Bureau of Safety and Environmental Enforcement

                    Gregory J. Gould
                    Director, Office o~al Resources Revenu_e

From:         J- Kimberly Elmore          ·          ~(/               ~
             r.._   Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:            Final Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
                    Interior - Bureau of Ocean Energy Management
                    Report No. WR-IN-BOEM-0007-2013

       The U .S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the Bureau of Ocean Energy Management (BOEM) accounting
for about $4 million of these funds. 1

        This report is part of our DOl-wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to BOEM that warrant your
attention under the current GovTrip travel system. We plan to issue an audit report to the Deputy
Secretary that will focus on DOl's planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty of the reliability ofthe
data in those reports.2 We determined that the risks presented by these limitations were
significant enough to warrant further review.

      The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as a part ofthe overall travel system. Specifically, we assessed DOl's ability to

1 All of the data for our audit testing period fell under the purview of the former Minerals Management Service (MMS). With the

subsequent reorganization ofMMS into three separate entities, the find ings and associated recommendations of this report apply
 to all three entities. For ease of reading, all mentions of the Bureau of Ocean Energy Management (BOEM) also refer to the
Bureau of Safety and Environmental Enforcement and the Office of Natural Resources Revenue.
2 "U.S. Department of the Interior's Video Teleconferencing Usage," WR-EV-MOA-0004-2010. December 2011.




                                Office of Audits, Inspections, and Evaluations I W ashington, DC
reconcile its various systems to determine whether data and dollars spent are fair and accurate.
The audit scope encompassed fiscal years 2009 and 2010 and included testing of more than 700
travel vouchers and 300 charge card statements across DOI’s bureaus. We also interviewed more
than 100 DOI and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

        We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We are attaching further detail as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well BOEM uses the current system and to determine ways in which
it can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 system have the Federal Travel Regulation (FTR)
as part of their foundation, which provides the regulatory framework for the approval,
processing, and payment of travel costs within the Federal Government. The GovTrip system has
worked in concert with these regulations to facilitate travel planning and payment, as will the
pending ETS-2.

Issues Found During Travel Voucher Testing

        We randomly selected 100 BOEM vouchers and their related authorizations from fiscal
years 2009 and 2010, though for reasons outlined below we could fully audit only 92 vouchers.
The total amount paid from these vouchers was almost $133,000, which included almost $28,000
paid directly to travelers. We found the following areas of concern:




                                                                                               2
Missing Documentation and Errors in Expenses

        The FTR requires that receipts be provided for all expenses greater than $75, as well as
all receipts for lodging expenses, regardless of dollar amount (FTR § 301-52.4). We found 25
vouchers that did not have the required supporting documentation for all travel expenses. These
expenses were almost all for airfare, one of the highest value expenses on vouchers. One of these
vouchers also noted that the traveler authorized his own travel but had someone else officially
stamp the document as approved. No changes were made on this voucher by the reviewing or
approving official even though receipts were missing and the voucher also included what appears
to be a personal cost to visit the National Archives.

         We also found 23 vouchers that either did not include all of the expenses that were listed
in the travelers’ receipts or the amounts shown on the receipts did not match those claimed on
the voucher. Almost half of these discrepancies were for hotel charges that were over standard
per diem rates, but the per diem allocations for lodging in GovTrip were not adjusted to reflect
the actual costs. Not changing the lodging rates to reflect actual costs distorts the data and causes
any reporting of this information to be inaccurate.

       Some of the other issues found include the rental of vehicles larger than a compact with
no authorization or justification, personal leave being taken during the trip time frame without
adequate or appropriate reduction of personal expenses from the trip costs, and inclusion of costs
on vouchers that were not approved or appropriate.

         In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, the plans must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules, and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Missing Vouchers and Profiles

       Of the 100 vouchers selected for testing from the Northrop Grumman inventory of
agency vouchers for the 2-year testing period, we could access and fully audit only 92 vouchers
through the GovTrip production system available to DOI. Of the eight vouchers we could not
review, we were able to confirm that the associated user profiles had been removed from the
system.

        While we were attempting to determine why so many documents were not available for
review, the DOI travel lead informed us that the likely cause of the document unavailability
related to the deletion of user profiles from the production system. Because no audit trail exists
in the creation, use, or deletion of user profiles in GovTrip, this statement could not be verified
nor could changes in user profiles during the period under review be evaluated.




                                                                                                      3
        Vouchers created in GovTrip are not stored in any other system, and if they cannot be
retrieved from GovTrip they cannot be retrieved at all, thus review of the document is not
possible. In addition, even though historical travel data can be obtained directly from the
GovTrip contract, Northrop Grumman, we found in interviews with BOEM and DOI personnel
that managers do not routinely request reports, and the contractor officials expressed hesitancy to
provide what they deemed to be additional services or ad hoc reports.

        In addition, the inability to look up historical travel documents limits BOEM’s ability to
effectively track and manage expended travel funds. For example, BOEM performs audits on
100 percent of vouchers. It is impossible, however, to select or review vouchers attached to
deleted profiles in BOEM’s audits, increasing the potential for fraud, waste, or mismanagement
to go undetected. GovTrip is the single repository of detailed travel arrangements, documents,
and approvals. Although payment for travel related expenses is performed in agency financial
systems, those systems will record only the payments, not the supporting detail behind them.
Further, because GovTrip is designed as a paperless electronic system, any gap in the GovTrip
database results in a loss of accountability for an agency. Responsibility for the accuracy and
integrity of the travel database has been, is, and will remain with the agency and DOI.

Authorizations Created After Trip Departure Date

        Of the 92 authorizations selected for testing, 9 authorizations were created or approved
after the trip departure date, including 1 authorization that was not created for almost 3 months
after the trip was completed. Although the FTR does permit this practice, FTR § 301-2.1 states:

       . . . Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, 10 percent failed to meet the general authorization
requirement and there is no evidence that they met the “not practicable or possible” stated in the
standard above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee who would be responsible for all travel costs.

Flagged Vouchers Without Appropriate Justification

         It is not unusual for vouchers to be flagged by GovTrip’s automatic auditing system,
indicating a potential problem or error in the voucher. Of the 92 vouchers we selected for testing,
23 had insufficient justifications submitted and approved for flagged items. In many cases,
travelers simply restated the flagged issue without any additional explanation. For example, one
voucher had no receipts attached, which GovTrip automatically flagged, but the traveler’s
justification did not address the reason for the missing documentation. Another voucher flagged
an airline expense, which the traveler could not explain in a related email, but the reviewer and



                                                                                                     4
approver allowed the voucher to be processed anyway. These explanations do not adequately
justify flagged items and supervisors routinely stamp these documents approved.

Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges since there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered only a
fraction of all BOEM travel card statements. Unfortunately, in our selection of 44 charge card
statements across several BOEM office locations, we found lax supervisory reviews that
contributed to issues with over 30 percent of the statements reviewed. This presents significant
internal control risk:

Missing Signatures

        Four of the 44 statements tested, 9 percent, did not have the required signatures of both
the supervisor and traveler. DOI policy requires supervisors to review statements and include the
signatures of both supervisor and traveler on the statement to show that all charges have been
verified as appropriate and allowable travel expenditures.

Unexplained Transactions

        Of the 44 statements tested, we found 8 statements with expenses that were not reported
in GovTrip or did not match the expenses reported in GovTrip, with questioned costs totaling
more than $3,500. 3 These included four statements with airfare charges that were not reported in
GovTrip or did not match expenses claimed in GovTrip. At least one of these airfares was
booked outside the GovTrip system without any documentation to justify this decision, a
violation of FTR § 301-50.3 and § 301-50.5. The FTR requires the use of the approved electronic
travel system (GovTrip) to book all airfares unless an exception has been authorized. Two other
cardholder statements listed hotel charges over $3,900, but travel claims could not be located in
GovTrip. Notes on both of these cardholder statements stated that the charges were canceled and
credits were to be issued to the cardholders. Neither cardholder statement, however, showed any
indication that the credits were verified or tracked to subsequent statements to ensure they were
issued back to the cardholders’ accounts. We learned that supervisors usually do not track charge
card credits, creating an opportunity for travelers to improperly pay for personal travel with the
Government card and erroneously claim that a credit is due or for vendors to promise a credit
and not follow through. We also found a statement with meals and drinks that were centrally
billed, even though the traveler also collected per diem for those days.

         With almost 20 percent of statements in our sample reflecting some sort of discrepancy,
this issue is both a significant internal control weakness and breakdown, not only because it

3
 Due to restricted data access issues, this figure is significantly understated and thus does not represent the total impact of
questioned costs.

                                                                                                                                  5
results in inaccurate accounting and an inability to rely on GovTrip-generated reports for
effective management, but because it is impossible for supervisors to reconcile expenses on
cardholder’s statements with GovTrip vouchers to verify that those expenses were related to an
approved trip. DOI Integrated Charge Card Program Policy Manual, sec. 2.9.2 states that
travelers are required to “[i]nclude a concise, detailed description for each line item . . . or attach
the travel voucher” on their charge card statements to ensure that all transactions are legitimate.
All of these questionable expenses appeared on charge card statements with the signatures of
both the traveler and the supervisor, which demonstrates that supervisors are not adequately
documenting the verification of travel charges back to source documents, further reducing the
intended effectiveness of this key internal control.

Conclusion and Recommendations

        Because ETS-2 is still several months from coming online, BOEM has an opportunity to
improve travel management practices under the current GovTrip system and through the
transition. Improving internal controls now will help strengthen overall travel management
controls when BOEM fully transitions to the new travel system.

    1. BOEM should require supervisors to—

            a. verify that vouchers contain supporting documentation as required by the FTR
               and accurately reflect costs incurred during travel;
            b. ensure travel authorizations are created and approved prior to travel with the only
               exception being bona fide emergency travel;
            c. review vouchers thoroughly and address any unresolved flagged items;
            d. verify and approve all charges on charge card statements; and
            e. ensure that both the traveler and supervisor sign and date charge card statements.

        Agency Response: In its April 26, 2013 response, BOEM concurred with
        Recommendation 1 parts a, b, and c, but did not identify target dates or responsible
        officials for implementation (see Attachment 2). For Recommendation 1 parts d and e,
        BOEM stated that because of its quality assurance review program for both BOEM and
        BSEE, DOI has waived the Bureaus from the standard charge card policy. BSEE and
        BOEM, therefore, believe that neither agency needs to take any additional action at this
        time. ONRR, however, is still subject to procedures established by the Office of the
        Secretary, which it stated it would continue to follow.

        OIG Reply: We consider Recommendation 1 resolved but not implemented. BOEM’s
        recognition and general concurrence regarding the majority of the report findings
        confirms the significance of the issues presented. We encourage BOEM to continue to
        look for ways to improve administration and management of its travel program in the
        ETS-2.We will refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget (PMB) for implementation tracking. We request that BOEM
        provide PMB with the responsible official and target dates for recommendation
        implementation (see Attachment 3).



                                                                                                      6
   Regarding BOEM’s statement that as a result of its quality assurance review program, it
   is no longer necessary for supervisors to verify and approve all charges on charge card
   statements, we believe that an important element of internal controls is to have the
   supervisor who is most familiar with an employee’s travel requirements be the first
   control in the review process. While it is possible for an oversight official to detect
   obvious errors or improper charges, it is much more difficult to identify unapproved
   charges when the charges appear to be consistent with travel requirements or approved
   trip timeframes unless the charge card statement reviewer is also directly familiar with
   the employee’s travel requirements and plans.

   BOEM also indicated a lack of concern for errors in travel documents when the errors do
   not result in an improper payment to the traveler or vendor. Further, BOEM stated that it
   does not rely on GovTrip data for most of its reporting, so errors in that system would not
   affect its travel-based reporting. We caution BOEM against conveying that lax travel
   management oversight is acceptable. This travel management viewpoint can
   communicate to travelers and supervisors that BOEM is not concerned about the
   accuracy or completeness of travel system data, a view that could continue across
   systems even when ETS-2 becomes the basis of travel reporting.

   In addition, BOEM stated that it relies on its financial system for travel reporting
   purposes. The financial system, however, can only report what has been paid, not
   necessarily what should have been paid. Until a process has been put in place to reconcile
   the travel system data with the financial system data, BOEM will be unable to validate
   the accuracy and completeness of the data it pulls from its financial system. Even though
   GovTrip is not a perfect system, having all travel expenses accurately reported in the
   system provides the capability to begin to understand and track travel information across
   BOEM beyond just the dollar amount paid.

2. BOEM should make changes to correct existing deficiencies, including—

      a. working with the bureau travel leads to ensure that profiles of existing and past
         employees are not deleted from the system; and
      b. creating and implementing policy requiring supervisors to reconcile charge card
         statements with travel vouchers.

   Agency Response: In its response, BOEM did not concur with Recommendation 2 and
   stated that it has never been a practice to delete traveler profiles and provided alternative
   explanations for why the profiles identified in this report were not found BOEM also
   stated that current policy exists requiring charge card transactions be reconciled to
   vouchers during the audit process. BOEM believed that no further action or policy is
   required at this time (see Attachment 2).

   OIG Reply: In regards to missing traveler profiles, BOEM stated that trips for
   invitational travelers are not being processed through GovTrip. We are not aware of any
   reason for BOEM to not be processing this type of travel through ETS, as other bureaus
   are currently doing. ETS (and soon to be ETS-2) is supposed to be the official travel

                                                                                                   7
       system, regardless of the effectiveness of the reporting capability at this time. With
       BOEM choosing not to process all of its travel through ETS, the data from ETS is
       inherently incomplete. In addition, even though some invitational travel was selected as
       part of the audit sample, since it was not in GovTrip we were unable to test the data.
       Unless all travel is entered into the electronic travel system, oversight of these types of
       trips will likely continue to be affected.

       In regards to existing BOEM policy requiring supervisors to reconcile charge card
       transactions to vouchers, we recognize that other internal control measures can be taken
       in leue of the recommendations presented in this report and that BOEM has chosen to
       establish other measues that have been approved by the Department. We consider this
       recommendation resolved and implemented (see Attachment 3).

       Overall, BOEM agreed with the reported issues, but it disagreed with some of the specific
       findings identified in the report and presented alternative calculations and outcomes for
       some of the issues identified during audit testing. For example, BOEM stated that of the
       25 vouchers identified in the report as having missing documentation, it found the
       supporting documentation for 4 of the vouchers. For these examples, as well as others
       presented in BOEM’s response, we applaud BOEM’s efforts to evaluate the issues and
       detailed testing results that formed the basis of our report findings and recommendations.
       In conducting these efforts, BOEM was apparently able to locate some of the information
       that was not available within the GovTrip system or agency records at the time of our
       review. Even with this effort, however, BOEM confirmed the vast preponderance of our
       testing results. Further, locating information after an audit is not the same as having the
       information contained in the official system of record at the time we performed our work.

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

       No response to this report is required. If you have any questions or need more specific
information about this report’s findings, please contact me at 202-208-5592.

Attachments (3)




                                                                                                     8
                                                                                      Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether BOEM had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel; management is
adequately performing oversight of the travel process; and charge card statements were verified,
approved and signed by the traveler and supervisor. We found weaknesses in BOEM’s travel
management controls. These weaknesses and recommended corrective actions are discussed in
this report and if implemented, the recommendations should improve BOEM’s travel
management controls.

Objective

        Our objective was to assess DOI’simplementation, use, and monitoring of GovTrip as a
part of the overall travel system. Specifically, we evaluated DOI’s ability to reconcile its various
systems to determine whether data and dollars spent are fair and accurate. We also performed
testing to ensure that any existing internal controls were sufficient to reasonably minimize risk of
fraud and errors.

Scope

        This was a DOI-wide audit of GovTrip and the related travel system. Our testing included
travel vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge
card statements related to those travel vouchers. In conducting our audit, we visited BOEM
offices in—

        •   Herndon, VA and
        •   Elmwood, LA.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

        During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of
both vouchers and charge card statements. We took steps, however, to allocate the reduction in
testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.


                                                                                                   1
                                                                                      Attachment 1


Methodology

        The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases for all the entities except MMS, as we were informed that this would be the
most accurate and complete way to establish the voucher universe by bureau and agency. MMS
provided us travel data from the charge card database since they believed this data to be more
accurate than the data from GovTrip. From this universe, vouchers were statistically sampled
using a stratified methodology, and the associated authorizations were also examined. Once the
testing sample was selected, we performed testing of travel vouchers and authorizations using the
live GovTrip environment. Use of the live GovTrip system environment for document
examination was required since the travel program has no “read only” audit feature and no
alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software, itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor J.P. Morgan Chase. We
did not perform a reliability assessment or any system tests for this data since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

        At the time of our survey and fieldwork that focused on travel policy, procedures, and
practices, the former MMS had not yet been reformed into the three agencies of BOEM, ONRR,
and BSEE. As such, our review of travel policy, procedures, and practices was limited to the
former MMS and the transitional Bureau of Ocean Energy Management, Revenue and
Enforcement (BOEMRE). We did not assess any travel policy, procedures, and practices
developed and implemented by ONRR and BSEE since they transitioned out from BOEMRE.

        Further, as a result of MMS providing us its travel data through the charge card system
instead of GovTrip, we found that MMS does not use GovTrip for all its travel arrangements.
This resulted in the inability to find vouchers or authorizations for some selected travel charges
in the GovTrip system. We were told that vouchers we thought had been deleted were more
likely to be missing because they were not entered into GovTrip at all; MMS did not process its
invitational travel through the GovTrip system. While this data caused our testing selection to be
inconsistent with the rest of the bureaus, we believe that the consistency in the testing selection
methodology still preserved the integrity of our samples.




                                                                                                   2
                                                                                    Attachment 1


Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    3
                                                                                     Attachment 2

                 United States Department of the Interior
                BUREAU OF SAFETY AND ENVIRONMENTAL ENFORCEMENT
                                  WASHINGTON , DC 20240-000 I

                                          APR 2 6 2013




Memorandum

To:           Assistant Inspector General for Audits, Inspections, and Evaluations

Through:      Rhea Suh
              Assistant Secretary- Policy, Management and Budget

              Tommy P. Beaudreau
              Acting Assistant Secretary - Land and Minerals Management

From:         James A. Watson         a /tl'~
              Director, Bureau · afe ty and Environmental Enforcement

              Gregory J. Goul
              Director, Office ofNatural Resources Rever e

              Walter D. CnLickshank   U- ~.          (!Y{
              Deputy Director, Bureau of~~ lfuergy Management

Subject:      Draft Audit Report- GovTrip Use and Monitoring by the U.S.
              Department of the Interior- Bureau of Ocean Energy Management
              Report No. WR-IN-BOEM-0007-2013

Thank you for the opportunity to respond to the Inspector General auditors' report on GovTrip
use and monitoring for Fiscal Years 2009 and 2010. Attached are our comments.

Please contact Scott L. Mabry, Bureau of Safety and Environmental Enforcement Associate
Director for Administration, at 202-208-3220 if you have any further questions.

Attachment




                                                                                                1
                                                                                   Attachment 2
                                                                                      Attachment


Executive Summary

On March 14, 2013, the DOl Office of the Inspector General (OIG) issued a draft audit report on
GovTrip use and monitoring to the Bureaus of Ocean Energy Management (BOEM) and Safety
and Environmental Enforcement (BSEE) and the Office ofNatural Resources Revenue (ONRR).
The Bureaus and ONRR appreciate the effort of the OIG in preparing this report. After a
thorough review, the Bureaus and Office concur that there is an opportunity to improve travel
management practices, particularly with respect to supervisory responsibilities. However, we do
not concur with all findings and recommendations. We note instances where the OIG did not
examine alternative controls for the reported issues and other instances where they did not
recognize additional information that addressed these findings. Detailed responses to these
findings and recommendations are provided below.

The Bureaus are scheduled to implement a new travel system on August 5, 2013. At this time,
we believe it is best to focus on the requirements necessary to migrate to the new system rather
than make improvements to the existing system. The Bureaus will provide thorough training to
all users on their travel management roles and responsibilities, and how to fulfill these
responsibilities in the new system.

Background

During November 2010 through April2012, the DOl OIG conducted an audit of the former
Minerals Management Service (MMS). MMS was reorganized into three new management
structures in May 2010, e.g., BOEM, BSEE, and ONRR. ONRR then became part of the Office
ofthe Secretary on October 1, 2010. For ease of responding, all mentions ofthe Organizations
refer to BOEM, BSEE and ONRR.

The Organizations implemented GovTrip on December 8, 2008. Until that time, we paid travel
vouchers manually and filed copies of paid travel vouchers, along with the travel authorizations
and receipts, in the Finance Division in Herndon, Virginia.

The GovTrip system has worked in concert with the Federal Travel Regulation (FTR) to
facilitate travel planning, as will the pending E-Gov Travel Services (ETS-2). GovTrip is used
for:
     • Travel planning and approving;
     • Calculating travel expenses that are due payable to the traveler;
     • Transferring (via interface) the expense amounts that are payable to travelers into the
         Financial and Business Management System (FBMS), for payment; and
     • Maintaining travel backup documentation.

BSEE and BOEM are scheduled to implement ETS-2 on August 5, 2013, and ONRR is
scheduled to implement it in October 2013. Each organization is currently very active in
preparing GovTrip data for the migration and working with the Department's implementation
team. Diverting any resources at this time to determine ways in which the current system can
be improved is not feasible.



                                                                                                   2
                                                                                      Attachment 2



Summary of Documents Reviewed in Audit

During their testing, the auditors randomly selected 100 travel authorizations (TA) and their
related travel vouchers (TV), and they also selected 44 charge card statements for review.
During their testing the auditors identified potential errors which we have addressed under five
broad groupings: Missing Documentation and Errors in Expenses; Authorizations Created After
Trip Departure Date; Missing Vouchers and Profiles; Flagged Vouchers Without Appropriate
Justification; and Issues Found During Charge Card Statement Testing. Within the Missing
Documentation and Errors in Expenses section we address the 25 TV s that were reviewed and
identified in the report as not having required supporting documentation, as well as the 23 TV s
that were reported to have had expenses that were not included on or did not match the TV.
Within the Authorizations Created After Trip Departure Date section we address the nine TAs
that were reviewed and deemed to be created after the trip date. Under the Missing Vouchers
and Profiles section we address the eight TV s that could not be located during the audit. The
Flagged Vouchers Without Appropriate Justification section addresses the 23 TVs that were
reviewed and identified in the report as not having appropriate justifications. Finally, the Issues
Found During Charge Card Statement Testing section addresses the four charge card statements
that were reviewed and did not have appropriate signatures, as well as the eight TV s that were
reported to have had expenses that were not included on or did not match the TV.

Missing Documentation and Errors in Expenses

During their testing, the auditors identified 25 TV s that potentially did not have the required
supporting documentation and 23 TV s that were reported to have had expenses that were not
included on or did not match the TV.

     Missing Documentation

     Of the 25 vouchers identified in the audit report as having missing documentation, four
     were found to have the documentation in GovTrip. In addition, it appears that one voucher
     is mistakenly being included in this category, though it is rightfully included in the
     23 documents comprising the Errors in Expenses sample below. The remaining 20 TV s
     addressed relate to airfare receipts.

     The Organizations generally concur with the finding that supporting documentation for
     expenses exceeding $75 was missing. We audit 100 percent oftravel vouchers, which
     includes validating travelers' centrally-billed Government charge card transactions,
     including airfare, to the travelers' PaymentNet account. The airfare information contained
     in PaymentNet depicts the same information that would be shown on a traveler's invoice,
     e.g., passenger's name, airline, itinerary, fare basis and amount (including tax amount),
     date purchased, and ticket number. The FTR (§ 301-52.8) allows paying TVs that are
     submitted without receipts attached if other supporting documentation exists. We were in
     compliance with the FTR when paying the TV s that did not have an airline receipt attached
     because we validated the expense to PaymentNet. While we feel that the procedures
     outlined above are adequate for supporting a travel claim, we have implemented procedures
     that require travelers to include a copy of their airfare receipt when submitting their


                                                  2
                                                                                Attachment 2



voucher for reimbursement. Additionally, BSEE is in the process of creating a Travel
Training program that will be required to be taken by all BOEM and BSEE personnel. This
training will address the importance of proper travel voucher preparation and receipt
requirements.

The audit report also addressed an instance where a traveler "authorized" his own TV. We
understand how it could appear as if a separation of duties control weakness existed;
however, the true control over when expenses can be incurred is the "approval" ofthe TV,
not the "authorization" of the TV. In this instance, the traveler was in the GovTrip routing
list as the section chief who, in his official capacity and within the realms of the meaning of
the term "authorized" in the GovTrip environment, correctly authorized the TV. The
document continued through the established GovTrip routing list to the next level of
authority and was approved by the traveler's supervisor.

Errors in Expenses

The Organizations concur that errors in expenses occurred; however, we do not concur
with the auditors' projection that reports containing travel-related costs are distorted
because centrally-billed transactions are not adjusted in GovTrip to match receipts. We
have three systems of record for travel-related matters, i.e., PaymentNet, DOl's Financial
and Business Management System (FBMS), and GovTrip. PaymentNet houses our charge
card data and maintains individually- and centrally-billed charge card activity at the
transaction level. GovTrip is our system of record for travel planning, processing,
approval, and calculating traveler-reimbursed costs. GovTrip transfers the traveler-
reimbursement data to FBMS for payment processing. FBMS is our system of record for
all financial, property, and acquisition processes, as well as reporting.

We do not extract data from GovTrip for any travel-related reporting requirements; all
travel-related reporting is extracted from FBMS, which receives the centrally-billed
transactions directly from JP Morgan and its reimbursements made directly to travelers
from GovTrip.

Of the 23 expenses that were identified as not matching the TV, we determined that seven
of those discrepancies identified in the audit report were accurately recorded in GovTrip.
One traveler's documentation to the voucher did not contain enough detail to determine
whether any errors in expenses actually occurred; the traveler combined personal with
official travel and checked out of the hotel a day early, but gave no explanation. As a result,
no definitive conclusion could be made.

We do not concur with the audit reference that a traveler had taken personal leave during
the trip timeframe without adequate or appropriate reduction of personal expenses from
the trip costs. The traveler had rented a vehicle and upon returning the vehicle, the rental
car company calculated the business and personal portions of the charges and charged the
traveler's Government-issued charge card for the business portion and a personal credit
card for the personal portion of the costs. The traveler properly claimed the expenses that
were provided by the rental car company.




                                            3
                                                                                      Attachment 2



      We agree with the audit report in that: (a) four vouchers showed lodging that exceeded per
      diem and lacked appropriate justification, (b) one voucher appears to show that the traveler
      reserved a compact car on theTA but upgraded upon arrival at TDY [temporary duty]
      location, and (c) one voucher did not include airport parking, even though a receipt for the
      expense was submitted.

      The remaining nine vouchers revealed that amounts on the vouchers were not adjusted to
      show actual expenses for centrally-billed Government charge card transactions; although
      this may be true, there is no negative impact either on the payment of the voucher or in the
      reporting of travel-related costs because of these discrepancies.

Missing Vouchers and Profiles

The Organizations do not concur that the reason eight vouchers could not be located was because
the travelers' profiles were deleted from GovTrip. It has never been our policy or practice to
delete user profiles from GovTrip. When an employee departs the Bureau, their profile is
deactivated and retained in a separate "Departed" profile listing.

The Organizations implemented GovTrip on December 8, 2008. Of the eight missing vouchers,
seven were for travel that occurred prior to our GovTrip implementation and one was travel
performed by an invitational traveler, which is not processed in GovTrip.

Authorizations Created After Trip Departure Date

We concur with the finding that authorizations were created after the trip departure date. Of the
nine authorizations addressed in the audit report, three were found to have been approved after
the trip departure date. Four were approved prior to the trip departure date, one traveler had
traveled on a blanket travel authorization and entered the electronic authorization immediately
upon his return from the trip, and one authorization that was approved after the trip was a result
of Deepwater Horizon, which was considered an emergency.

BSEE will include the regulatory requirements surrounding travel authorizations in the
previously discussed Travel Training. In fiscal year 2013, the General Services Administration
implemented the 48-Hour Reservation Cancellation Rule that requires all travel authorizations be
approved at least 48-hours prior to the departure date or airline tickets will be cancelled. GovTrip
is configured to purchase tickets 96 hours prior to departure to avoid cancellations and sends e-
mails to travelers if their authorizations have not been approved. This new rule, along with the
GovTrip configuration and e-mail notifications, ensures supervisors will be more apt to approve
authorizations timely.

Flagged Vouchers Without Appropriate Justification

We concur with the finding that travel vouchers having a potential problem or an error in the
voucher that were flagged for further justification contained insufficient justifications submitted.
BSEE will include appropriate guidance on proper justification for flagged items in the Travel
Training being prepared for all BSEE and BOEM travelers. In addition, all accounting
technicians who audit travel vouchers will be required to take the Travel Training to ensure they
receive appropriate Bureau-specific training.

                                                 4
                                                                                      Attachment 2




Issues Found During Charge Card Statement Testing

Missing Signatures

BOEM and BSEE acknowledge that missing signatures of cardholders and approving officials on
monthly Government-issued charge card statements has been an ongoing agency problem. As a
result, the Organizations implemented a Bureau-wide monthly review of travel-related charge
card transactions in 2003 as a mitigating control. This review covered both individually- and
centrally-billed transactions. Because this mitigating control was in place and functioning and
100 percent ofTVs are audited, BSEE and BOEM were able to obtain a waiver on May 9, 2012,
that exempts them from the DOl policy requirement mandating that Approving Officials and
cardholders sign monthly charge card statements on travel business line accounts.

All samples in the audit included employees now assigned to either BSEE or BOEM; no ONRR
employee statements were reviewed. As a result, ONRR has no comment on this section of the
audit report. ONRR will, however, continue to follow the guidance as required under the Office
of the Secretary concerning this issue.

Unexplained Transactions

We concur that there were expenses appearing on charge card statements that were not reported
in GovTrip or did not match the expenses reported in GovTrip. The audit references airfare that
was booked outside of GovTrip; however, we did not find any airfare that was booked outside of
GovTrip or the Travel Management Center, SATO. In addition, we found only one TV that was
not in GovTrip and that was because the trip had been cancelled and the original airfare charge
had been credited back to the traveler's account and appeared on a later charge card statement.

We do not concur that credits are not verified or tracked to subsequent statements to ensure they
were issued back to the cardholders' account nor with the auditors' speculation that travelers
have the opportunity to improperly pay for personal travel with the Government charge card.
Our quality assurance program matches trip start and end dates with charge card transaction
dates to ensure that all travel-related charge card transactions occurred during TDY, which
would identify any unofficial travel. Additionally, duplicate airfare transactions are noted and
subsequent reports are checked to ensure credits are posted for the transaction(s).

The audit report states that travelers had centrally-billed transactions for meals and drinks, even
though they also collected per diem on those days; however, one traveler's charge had been
moved to individually-billed at the request of the traveler upon their return from the trip and the
other discrepancy had been resolved by the auditor after the draft had been prepared and who
will remove the language from the final report.




                                                  5
                                                                                     Attachment 2




Conclusion and Recommendations

We concur that the three entities have an opportunity to improve travel management practices
under the current GovTrip system by, at the minimum, ensuring Approving Officials only
approve those flagged items that contain full justifications and appropriate documentation is
submitted with travel vouchers.

We concur with the recommendation that we should require supervisors to:
   • Verify that vouchers contain supporting documentation as required by the FTR and
      accurately reflect costs incurred during travel;
   • Ensure travel authorizations are created and approved prior to travel with the only
      exception being bona fide emergency travel; and
   • Review vouchers thoroughly and address any unresolved flagged items.

Because of the robust quality assurance review performed on travel-related charge card
transactions and that both bureaus have a waiver from the Department, BSEE and BOEM do
not concur with the recommendation that we should require supervisors to:
    • Verify and approve all charges on charge card statements; and
    • Ensure that both the traveler and supervisor sign and date charge card statements.

ONRR will continue to follow procedures established by the Office of the Secretary in regards to
travelers and supervisors signing and dating charge card statements.

Because it has never been a practice to delete profiles and it was determined that no profiles had
been deleted and current policy exists requiring charge card transactions be reconciled to the TV
during the audit process, we do not concur that we should make changes to correct existing
deficiencies, including:
    • Working with the bureau travel leads to ensure that profiles of existing and past
        employees are not deleted from the system; and
    • Creating and implementing policy requiring supervisors to reconcile charge card
        statements with travel vouchers.




                                                 6
                                                                        Attachment 3


Status of Recommendations

    Recommendations                 Status                  Action Required

                                                             We will refer the
                                                          recommendation to the
                                Resolved but not
             1                                         Assistant Secretary for Policy,
                                 implemented
                                                        Management and Budget for
                                                        tracking of implementation.



             2              Resolved and implemented    No further action required.




                                                                                      1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
